  AUDIT OF THE LEAGUE/SEIU 1199
TRAINING AND UPGRADING FUND (TUF)
 H-1B TECHNICAL SKILLS TRAINING
   GRANT NUMBER AH-11092-01-60
     NOVEMBER 15, 2000 THROUGH
        SEPTEMBER 30, 2001




                  U.S. DEPARTMENT OF LABOR
                  OFFICE OF INSPECTOR GENERAL

                  REPORT NO: 02-02-214-03-390
                  DATE: September 30, 2002
                                            TABLE OF CONTENTS


ACRONYMS ....................................................................................................................................i

EXECUTIVE SUMMARY .............................................................................................................1

INTRODUCTION

          BACKGROUND .................................................................................................................3

          AUDIT OBJECTIVES .........................................................................................................4

          AUDIT SCOPE AND METHODOLOGY..........................................................................4

FINDINGS AND RECOMMENDATIONS

          I.     PROGRAM IMPLEMENTATION..............................................................................6

          II. PROGRAM OUTCOMES ...........................................................................................7

          III. REPORTED OUTLAYS ..............................................................................................9

          IV. OTHER MATTERS ...................................................................................................12


APPENDIX

          TUF’S RESPONSE TO DRAFT REPORT.......................................................................13
                        ACRONYMS



ACWIA   American Competitiveness and Workforce Improvement Act

AAS     Associate in Applied Science

BSN     Bachelor of Science in Nursing

CNA     Certified Nursing Assistant

FSR     Financial Status Report

LPN     Licensed Practical Nurse

RN      Registered Nurse

SEIU    Service Employees International Union

TUF     Training and Upgrading Fund

USDOL   U.S. Department of Labor




                                  - i-
                             EXECUTIVE SUMMARY


The U.S. Department of Labor (USDOL), Office of Inspector General, conducted an audit of The
League/Service Employee International Union 1199 (SEIU) Training and Upgrading Fund’s
(TUF) H-1B technical skills training grant for the period November 15, 2000 through
September 30, 2001. The overall audit objective was to evaluate if TUF was meeting the intent
of the H-1B Technical Skills Training Program and the requirements of its grant. The
subobjectives were to determine if:

   •   The project had been implemented as stated in the grant.

   •   Program outcomes were measured, achieved and reported.

   •   Reported costs were reasonable, allocable and allowable in accordance with
       applicable Federal regulations, and Office of Management and Budget (OMB)
       Circular A-122, Cost Principles for Non-Profit Organizations.

The H-1B Technical Skills Training Program was designed to help U.S. workers acquire the
technical skills for occupations that are in demand and being filled by foreign workers holding
H-1B visas. USDOL awarded TUF $2,751,787 for the period November 15, 2000 through
November 14, 2002, to provide 675 union members with healthcare career training (550 with
grant funds and 125 with matching funds). The H-1B training project facilitates a career ladder
within the healthcare industry to assist healthcare workers in the transition to licensed and
degreed nursing positions.

AUDIT RESULTS

As of September 30, 2001, TUF had implemented a sustainable expansion of its already ongoing
long-term training program, which was consistent with grant requirements and served the target
population. The H-1B grant initiated Certified Nursing Assistant (CNA) and Registered Nurse
(RN) specialty programs, and supplemented other programs already funded under collective
bargaining agreements. Sustainability of the project is ensured through the long-standing
collective bargaining agreements with member institutions, which require the contribution of
one-half percent of their payroll to the training and upgrading fund.

However, TUF has not met certain grant requirements and the grant ends November 14, 2002.

   •   Training was still in progress, and therefore both training and placement outcomes had
       not been achieved. As of September 30, 2001, TUF had a sufficient number of
       participants enrolled to meet proposed training outcomes in all programs except the
       newly initiated H-1B funded CNA and RN specialty programs. TUF staff indicated that
       certification, licensure, or degree achievement goals would be achieved because it
       planned to substitute any participant who dropped out of the program with comparable
       students funded by other sources.


                                              -1-
    •   We question $359,462 or 65 percent of reported costs because of unreasonable accruals
        and unsupported payroll allocations.

    •   TUF was not meeting the 25 percent matching requirements and the 10 percent
        administrative costs limitation. Future costs may be questioned if the requirements are
        not met by the end of the grant period.

    •   TUF has never had a single audit or program-specific audit report issued, as required by
        the Single Audit Act.

TUF’s RESPONSE

On September 20, 2002, the Chief Financial Officer of TUF responded to our draft report. He
stated that (1) the CNA and RN specialty programs increased their enrollments, (2) the
June 30, 2002 FSR was adjusted to correct the accrual error and an in-kind contribution error,
and (3) the payroll allocation was based on trend analysis.

OIG’s COMMENTS

TUF needs to continue its efforts to improve enrollment in both the CNA and the RN specialty
areas in order to meet the enrollment goals established in its grant agreement. Questioned costs
of $359,462 remain unchanged since TUF did not provide us with either a revised FSR,
adjustments, or a proper basis for allocating payroll.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

   •    ensures that TUF increases enrollment in the CNA and RN specialty programs to meet
        training and placement goals;

   •    recovers questioned costs of $359,462;

   •    requires TUF to submit a revised Financial Status Report (FSR) that accurately reflects
        grant costs; and

   •    ensures that TUF obtains an audit, as required by the Single Audit Act.




                                                 -2-
                                            INTRODUCTION


                     The American Competitiveness and Workforce Improvement Act of 1998
     BACKGROUND      (ACWIA) was enacted to help employed and unemployed U.S. workers
                     acquire the technical skills for occupations that are in demand and being
filled by H-1B visa holders. The H-1B program allows employers to temporarily employ foreign
workers on a non-immigrant basis to work in specialized jobs not filled by U.S. workers
(8 U.S.C. 1101(a)(15)(H)(i)(b)). A $1,000 user fee is imposed on employers for H-1B
applications. ACWIA provides that over half that fee is used to finance the H-1B Technical Skill
Training Program administered by USDOL.

H-1B technical skills training grants are demonstration grants awarded under the authority of
Title IV-D of the Job Training Partnership Act and Title I-D of the Workforce Investment Act.
As of March 31, 2002, USDOL had conducted 4 rounds of grant competition and awarded 60
grants totaling approximately $143 million.


                          Grant       Solicitation    Number Award
                          Round       Date            of Grants Amount
                            1         August 16, 1999     9      $12,383,995
                            2         March 29, 2000     12      $29,166,757
                            3         August 1, 2000     22      $54,000,000
                            4         April 13, 2001     17      $47,559,7611
                                      Total              60     $143,110,513


In round three, TUF was awarded $2,751,787 under Grant Number AH-11092-01-60 for the
period November 15, 2000 through November 14, 2002. TUF proposed and agreed to train
union members in the following areas: Certified Nursing Assistant (CNA), Licensed Practical
Nurse (LPN), LPN to Registered Nurse (RN) and Associate Applied Science (AAS) level RN to
Bachelor of Science in Nursing (BSN) RN.

TUF is the largest training organization for healthcare organizations in the United States. TUF is
self-administered and provides healthcare career training, upgrading and education of member
employees, creating a career ladder from the lowest to the highest level of nursing. In addition to
Federal and state funding, TUF’s income includes payments made by contributing employers.




1
    As of March 31, 2002, Round 4 was an open solicitation with an additional $87 million available for award.

                                                         -3-
                         The overall audit objective was to evaluate if TUF was meeting the
 AUDIT OBJECTIVES        intent of the H-1B Technical Skills Training Program and the
                         requirements of its grant. The subobjectives were to determine if:

   •   The project had been implemented as stated in the grant.

   •   Program outcomes were measured, achieved and reported.

   •   Reported costs were reasonable, allocable and allowable in accordance with
       applicable Federal regulations, and OMB Circular A-122, Cost Principles for Non-
       Profit Organizations.

                         The audit period was November 15, 2000 through
  AUDIT SCOPE AND         September 30, 2001. In performing this audit, we reviewed the
   M ETHODOLOGY          Solicitation for Grant Applications and the grant agreement to determine
                         the requirements and performance measures of the grant. We
interviewed staff at TUF, examined participant records and reviewed other materials related to
project implementation.

We audited cumulative net outlays of $679,448, consisting of the Federal share of $554,198 and
third party in-kind contributions of $125,250, claimed on the Financial Status Report (FSR) for
the period November 15, 2000 through September 30, 2001. We traced expenditures to general
ledgers and examined supporting documentation including vouchers and invoices. Judgmental
sampling was used to test individual account transactions and balances. We tested outlays of
$416,001 or 75 percent of reported Federal outlays.

We considered TUF’s internal controls over the H-1B grant project by obtaining an understanding
of the grantee’s internal controls, determining whether these internal controls had been placed in
operation, assessing control risk, and performing tests of controls. Our purpose was to determine
the nature and extent of testing need to satisfy our audit objectives, not to provide assurances on
the internal controls; therefore, we do not provide any such assurances.

Compliance with laws, regulations, and grant agreement provisions is the responsibility of TUF.
We performed tests of compliance with certain provisions of laws, regulations, and the grant to
evaluate if TUF was meeting the requirements of the grant and that reported costs were
reasonable, allocable and allowable in accordance with applicable provisions of Federal
regulations and OMB circulars. However, our objective was not to provide an opinion on overall
compliance with Federal regulations and OMB circulars and, accordingly, we do not express such
an opinion. We evaluated allowability of claimed costs using relevant criteria included in:
ACWIA; 29 CFR 95, Grants and Agreements with Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations; OMB Circular A-122, Cost Principles for Non-Profit
Organizations; in addition to grant requirements. We examined compliance with grant
requirements and program outcome goals as included in the Solicitation for Grant Applications
and the grant agreement.




                                               -4-
We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests as we considered necessary to
satisfy the objectives of the audit. We conducted fieldwork from November 20, 2001 through
January 7, 2002, at TUF located in New York, New York. We held an exit conference with TUF
on August 8, 2002.




                                             -5-
                   FINDINGS AND RECOMMENDATIONS


I. PROGRAM IMPLEMENTATION

The Solicitation for Grant Applications states:

      “The primary emphasis of the ACWIA technical skills training will be to focus on
       employed and unemployed workers who can be trained and placed directly in the
       highly skilled H-1B occupations. . . .

      “Although the primary focus of these awards is technical skill training, ETA intends
       that regional partnerships sustain themselves over the long term – well after the
       federal resources from this initiative have been exhausted.”

As of September 30, 2001, TUF had successfully implemented a sustainable extension of its
already ongoing long-term training project, which was consistent with grant requirements and
served the target population.

                  TUF designed and implemented its training programs as proposed in the grant
  TRAINING        agreement. The H-1B grant initiated the CNA and RN specialty programs, and
  PROVIDED        supplemented programs funded under collective bargaining agreements for
                  LPN, LPN to RN, and AAS to BSN.

TUF provided training at four career levels (CNA, LPN, LPN to RN, RN with AAS to BSN) and
in three RN specialty areas in critical care, emergency care, and labor and delivery. Except for
the RN specialty in labor and delivery, each program was fully implemented as proposed in the
grant agreement. TUF was making arrangements with participating hospitals to provide training
facilities for the RN specialty in labor and delivery.

Training was provided to the target population, incumbent workers of SEIU 1199. According to
the grant, “Ninety- five percent of 1199 workers are female; 32 percent are African-American;
27 percent are Caribbean Black; 29 percent are Hispanic. . . .”


                     Sustainability of this program is ensured through collective bargaining
    PROJECT          agreements with member institutions. The grant agreement states:
SUSTAINABILITY

       Sustainability will be ensured under the Tuition Assistance benefit offered to all
       1199 members under the Collective Bargaining agreement between TUF and its
       contributing employers.




                                                  -6-
Article XXII of the collective bargaining agreements stated that one-half percent of employer
contributions will be used to “develop career ladders, and to subsidize employees in training and,
when necessary, the costs in training in areas of manpower shortages.”

II. PROGRAM OUTCOMES
As of September 30, 2001, TUF adequately measured and reported enrollments, but had not
achieved training and placement outcome goals. Placements were not made because training was
still in progress. TUF had a sufficient number of participants enrolled to meet proposed training
outcomes in all programs except the newly established, H-1B funded, CNA and RN specialty
programs.

                     The grant agreement states that H-1B training will result in the training
    O UTCOME         of 675 students (550 students financed by the grant and 125 students by
 ACHIEVEMENT         matching funds) as follows:

    •   “All 200 CNA program completers will become certified and employed as
         CNAs.

    •   “All 100 LPN program completers will become licensed and employed as
         LPNs.

    •   “All 50 RN AAS program completers will achieve a two- year degree and
         upgrade in employment.

    •   “All 175 BSN program completers will achieve a four-year degree and
         upgrade in employment.

    •   “All 150 nurses newly trained in high demand specialty skills will be
         employed in their new specialty at their current institution.”

As of September 30, 2001, training was still in progress and therefore placements had not been
made. TUF was falling short in enrolling participants in CNA and RN specialty programs
because these programs were newly established for the H-1B program, unlike the other programs
that were already well established before the H-1B technical skills grants were awarded. TUF
was experiencing difficulty in recruiting AAS to BSN students that prefer the electronic distance
learning structure to the traditional classroom structure. (See chart in the Measurement and
Reports section below for supporting statistical details.)

TUF staff indicated that certification, licensure, or degree achievement goals would be achieved
because it planned to replace any participant who dropped out or failed to get certification with
comparable students. These comparable students at a similar stage in training, and funded through
other sources, will be transferred into an H-1B funded status. TUF had trained close to 50,000
workers in comparable training over a two-year period and has close to 125,000 members to draw
upon.



                                               -7-
                       The grant requires that TUF submit quarterly progress reports on project
 M EASUREMENT          performance. 29 CFR 95.51(d)(1) states that performance reports should
 AND R EPORTS
                       contain: “A comparison of actual accomplishments with the goals and
                       objectives established for the period. . . .”

TUF adequately measured and reported enrollment status. The enrollment status for grant- funded
students, for the eight programs as of September 30, 2001, is as follows:

                                                              Enrollments
            Training                                  Grant      Actual Percent

            CAN                                         200        45         23
            LPN                                          50        50        100
            LPN to RN (traditional and distance)         50        50        100
            AAS to BSN (traditional)                     50        50        100
            AAS to BSN (distance)                        50        31         62
            Specialty RN Critical Care                   50        23         46
            Specialty RN Emergency Room                  50        19         38
            Specialty RN Labor & Del                     50         0          0
             TOTAL                                      550       268         49

TUF’s RESPONSE

      The Chief Financial Officer of TUF stated that, at the time of the audit, the CNA
      and RN specialty programs did not have a sufficient number of participants
      enrolled because these programs had difficulty in recruitment. However, he stated
      that since the audit the number of enrolled participants in the CNA program has
      increased to 113 participants and the RN specialty programs have completed 47%
      of the requirements under the grant.

OIG’S COMMENTS

TUF needs to continue its efforts to improve enrollment in both the CNA and the RN specialty
areas in order to meet the enrollment goals established in its grant agreement.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training ensure that TUF increases
enrollment in the CNA and RN specialty areas and meets both training and placement goals.




                                               -8-
III. REPORTED OUTLAYS

TUF claimed cumulative net outlays of $679,448, consisting of the Federal share of $554,198 and
third party in-kind contributions of $125,250, on the FSR for the period ending
September 30, 2001. We question $359,462 or 65 percent of Federal outlays, as shown below:


                      Unreasonable accruals                 $286,309
                      Unsupported payroll allocations       $ 73,153
                            Total questioned costs          $359,462

As of September 30, 2001, reported administrative costs of $89,041 represent 16 percent of the
Federal share of outlays of $554,198. It should be noted that administrative costs are limited to
ten percent of the grant request.

                  The Grant Agreement, Part IV - Special Conditions, requires TUF to report
 ACCRUALS -       program outlays on an accrual basis. 29 CFR 95.52(a)(1)(ii) requires:
  $286,309

       DOL shall prescribe whether the report shall be on a cash or an accrual basis. If
       DOL requires accrual information and the recipient’s accounting records are not
       normally kept on the accrual basis, the recipient shall not convert its accounting
       system, but shall develop such accrual information through best estimates based on
       an analysis of the documentation on hand.

TUF maintained accounting records on a cash basis and developed accruals separately for the
FSR for the period ending September 30, 2001. Accruals were developed for subcontracts,
personnel servic es and other than personnel services. Accruals accounted for 52 percent of
Federal outlays, but were not reasonable because they did not reflect the best estimate of program
costs incurred but not yet paid. The full $286,309 of accruals is questioned, and examples of
improper accrual methodology for the subcontract, personnel services and other than personnel
services categories are shown below:

Subcontracts - $271,177

TUF subcontracted with training institutions and for a consultant who performed program
monitoring. TUF determined the accrual for subcontracts by calculating the difference between
the proportionate amount of the contract budget applicable for the period and deducting expenses
already booked under the cash method of accounting. However, this method was not reasonable
for the subcontracts because it does not reflect the actual amounts due.

   •   Four out of eight subcontracts included in the accrual calculations had contract periods
       that extended beyond the grant period. However, TUF allocated the contract budget from
       the subcontract start date to the end of the grant period to determine the proportion of the



                                               -9-
       contract budget applicable for the period. This improperly allocates expenses to the grant
       that would be incurred after the grant ends.

   •   Most subcontracts were agreements to pay tuition and books for a certain number of
       students based on the maximum amount that could be charged. However, the accruals did
       not reflect changes in the numbers of students enrolled in the programs. For example, the
       Stony Brook contract had a tuition rate of $6,160 per student and only one participant was
       enrolled as of September 30, 2001. However, TUF accrued $35,200 for the Stony Brook
       contract for the period.

Personnel Services ($2,734) and Other than Personnel Services ($12,398)

Accruals for these two cost categories were based on a monthly allocation of budgeted costs.
Accruals should reflect the actual expenses incurred, even if not yet paid, and are not to be based
on budgeted amounts. For example, personnel costs should be allocated based on actual time
expended as reflected in time records, but for which the costs have not yet been paid.

                  We question the full amount of the $73,153 of reported salaries and fringe
   PAYROLL        benefits due to improper allocations of payroll and estimated time distribution.
 ALLOCATION       OMB Circular A-122 states reported costs must be reasonable, allowable, and
  - $73,153       allocable. OMB Circular A-122, Attachment B, Paragraph 7 Compensation for
                  Personal Services states:

       m. Support of salaries and wages.

           “(1) . . .The distribution of salaries and wages to awards must be supported by
                personnel activity reports . . .

           “(2) Reports maintained by non-profit organizations to satisfy these
                requirements must meet the following standards:

                “(a) The reports must reflect an after-the-fact determination of the actual
                     activity for each employee.

                “(c) . . . the distribution of activity represents a reasonable estimate of the
                     actual work performed by the employee during the periods covered
                     by the reports.”

TUF improperly allocated salaries and fringes of $73,153 to the H-1B grant, as follows:

   •   In the worksheet documenting the salaries and fringes allocated to the H-1B grant for the
       period November 15, 2000 through June 30, 2001, the salaries used as the basis for the
       calculation were for the period July 1, 2000 to June 30, 2001. The grant period only
       began November 15, 2000, and therefore the salaries used as a basis were overstated.

   •   Annual salaries used in the salary allocation computation did not agree with the annual
       salaries indicated by Human Resources.

                                                - 10 -
   •   Time was charged to the H-1B grant on timesheets for two employees based on fixed
       percentages. Time charges should be based on actual activity.


   M ATCHING         29CFR 95.23(a) requires:
 REQUIREMENT

         All contributions, including cash and third party in-kind, shall be accepted as part
         of the recipient’s cost sharing or matching when such contributions . . . are
         verifiable from the recipient’s records.

The grant established a matching requirement of 25 percent on Federal outlays. However the
matching requirement has not been met as of September 30, 2001, and the matching costs
reported do not represent actual amounts that are verifiable from TUF records.

   •   TUF reported $125,250 of in-kind contributions or 23 percent of Federal outlays on the
       FSR for the period ending September 30, 2001. The 25 percent requirement must be
       satisfied by the end of the grant period. Future grant costs may have to be questioned if
       the matching requirement is not satisfied.

   •   Also, in-kind costs represented tuition charges for a selected group of students funded
       under the collective bargaining agreement. However, TUF calculated the matching costs
       by using average tuition costs rather than actual costs for the selected students. As a result,
       matching costs were not verifiable from TUF records.

TUF’s RESPONSE

The Chief Financial Officer of TUF stated that accruals were reported on the FSR by
taking the amount of the vendor’s contracts and spreading it evenly over the contract
period. He agreed that an over accrual arose as a result of this approach and stated that
TUF has corrected this error by making a year to date adjustment on the FSR for the
period ending June 30, 2002. He also noted that the overstatement of expense accruals
incorrectly reported on the FSR for the period ending June 30, 2001, had no financial
impact because TUF only drew down money for actual expenses.

Regarding staff payroll allocation, the Chief Financial Officer stated that this allocation is
based on trend analysis that determined an allocation rate for the amount of time each staff
devotes to each grant administered by TUF. He stated that it is impossible for TUF to track
each grant work on hourly basis, and as a practical approach, TUF analyzes all their grant
projects and determines the proportion of staff time needed for each. He stated that this rate
is reviewed periodically.

Finally, the Chief Financial Officer stated that the amount of in-kind contributions
reported on the FSR for the period audited was incorrect and TUF made a year to date
adjustment on the FSR for the period ending June 30, 2002 to reflect the actual costs for
the selected students.

                                               - 11 -
OIG’s COMMENTS

Questioned costs of $359,462 remain uncha nged. Although the grantee states it corrected the
overstated accrual by adjusting the FSR for June 2002, TUF did not provide us with either the
revised FSR or adjustments.

Concerning the payroll allocation, OMB Circular A-122 states that salary distribution
must be supported by personnel activity reports and reflect an after-the fact determination
Further, TUF did not address the deficiencies of its payroll allocation.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training recover questioned costs of
$359,462, require TUF to submit a revised FSR that accurately reflects grant costs and ensure that
TUF satisfies the grant’s matching requirement.


IV. OTHER MATTERS

 SINGLE AUDIT      29 CFR 99.200 states:
 REQUIREMENT

     (a) Audit required. Non-Federal entities that expend $300,000 or more in a year in
         Federal awards shall have a single or program-specific audit conducted for that
         year in accordance with the provisions of this part.

TUF has never had a single audit or program-specific audit report issued, even though required
because of the exceeding of the $300,000 threshold, as indicated below.

The audited draft of the June 30, 2000, financial statements for TUF states that during the year
ended June 30, 2000, TUF received approximately $8.3 million to administer for certain hospitals
the Federally- funded Community Health Care Conversion Demonstration Project, and had
incurred approximately $4.3 million in expenses for that grant.

In his response to our draft report dated September 20, 2002, the Chief Financial Office of TUF
did not comment on this finding.

Recommendation

We recommend the Assistant Secretary for Employment and Training ensure that TUF obtains an
audit, as required by the Single Audit Act.




                                              - 12 -
